No. 19-161
IN THE

~upreme <!ourt of tbe mlniteb ~tatei1
DEPARTMENT OF HOMELAND SECURITY, et al.'

Petitioners,
V.

VIJAYAKUMAR THURAISSIGIAM,

Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of Amici Curiae Immigration Scholars in Support of Respondent contains
6,733 words and complies with the word limitation established by Rule 33.l(g)(xiv) of
the Rules of this Court.
Dated: January 22, 2020

